C@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No.

DEBE OLSON,
Petitioner,

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

v.
FARMERS NEW WORLD LIFE INSURANCE COMPANY;
FARMERS INSURANCE GROUP, ALSO KNOWN AS
FARMERS GROUP, INCORPORATED,

Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of August, 2020, send out
from Omaha, NE 2 package(s) containing 1 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar

days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DAVID SHELLER
State Bar No. 18193700
Fed. Bar No. 85884
david@shellerlawfirm.com
SHELLER LAW FIRM, PLLC
360 FM 1959
Houston, Texas 77034
Telephone: 832-841-1175
Attorney for Petitioner

Debe Olson

Subscribed and sworn to before me this 17th day of August, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

Renae. 0. Bose

Notary Public

GENERAL NOTARY-State of Nebraska

RENEE J. GOSS
My Comm. Exp. September 5, 2023,

 

Qudeaw-h, Gh ke

Affiant 40034
CERTIFICATE OF SERVICE

Carlos Rey Ranier

Phillip Tarpley

Janet Higgins

NORTON ROSE FULBRIGHT US LLP
Fulbright Tower

1301 McKinney, Suite 5100

Houston, Texas 77010-3095

Telephone: (713) 651-5151
carlos.rainer@nortonrosefullbright.com
philip.tarpley@nortonrosefullbright.com
janet.higgins@nortonrosefullbright.com
Attorneys for Respondents,

Farmers New World Life Insurance Company and Farmers Group, Inc.

Peter Mason

Joshua Lichtman

Eric Herzog

NORTON ROSE FULBRIGHT US LLP
555 S. Flower Street, 41° Floor

Los Angeles, CA 90071

Telephone: (213) 892-9200
peter.mason@nortonrosefullbright.com
joshua. lichtman@nortonrosefullbright.com
eric.herzog@nortonrosefullbright.com
Attorneys for Respondents,

Farmers New World Life Insurance Company and Farmers Group, Inc.
